Supreme- Court, U.S.
FILED

No.

5696

AUG 1 k 2021

IN THE SUPREME COURT OF THE UNITED STATES

PETITIONER

FAN GU
vs.
INVISTA S.A.R.L —

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Fan Gu
Pro Se Litigant
3605 South Braeswood
Houston, TX 77025

QUESTIONS PRESENTED
1.
Whether the Fifth Circuit erred issued orders to claim that
PlaintiffAppellant’s claims are barred by Res Judicata.
Whether the Fifth Circuit fail to reverse district court denied due
process and allowed fault, misconducts and crime of perjury, forgery and
contempt court orders in the lawsuit, discriminated Plaintiff in court
proceedings.
2.

Whether the Fifth Circuit court fail to reverse district court denied
new party The Lycra Company as defendant and new trial.
3.

4.
Whether the Fifth Circuit court fail to reverse district court erred
denied Plaintiffs Motion for Default Judgment.
5.
Whether the Fifth Circuit court fail to reverse district court
allowed fraudulent scheme, crimes, civil rights violation, discrimination
Plaintiff Pro se happened.
Whether the Fifth Circuit court fail to reverse district court used
inadmissible evidence to issue final judgment order and abused of
discretion.
6.

Whether the Fifth Circuit Exceeded Its Powers and Acted as a
Trier of Fact by Determining Relevance of Unproduced, Unreviewed
Evidence
7.

Whether the Fifth Circuit did not follow McDonnel Douglas
Framework and Decision in Previous Case Created a Direct and
Substantial Circuit Split Regarding Age Discrimination Cases

8.

9.
Whether the Fifth Circuits’s Decision Countenances Crimes and
Begs For This Court’s Supervisory Powers

li

LIST OF PARTIES

[x ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Fan Gu, Plaintiff-Appellant- PETITIONER
INVISTA S.A.R.L., Defendant-Appellee- RESPONDENT
Koch Industries, Inc. Defendant INVISTA S.A.R.L is wholly-owned by
Koch Industries, Inc. a privately-owned company
The Lycra Company LLC, New party. The company is an independently
managed, wholly owned subsidiary of Shandong Ruyi Investment
Holding, a public traded company. *
INVISTA S.A.R.L. is represented by Shauna Johnson Clark, Heather
Sherrod, and Andrew Yeh, Norton Rose Fulbright US LLP

Note: * On January 31, 2019, INVISTA sold its apparel and textile
business, including the LaPorte, Texas facility where Mr. Gu previously
worked to The Lycra Company LLC. As part of sale, the buyer assumed
the associated debts, obligations, and liabilities of INVISTA’s apparel
and textile business. The Lycra Company LLC should be new defendant.

Related Cases
4:l5-CV-00240, 16-20463, 17-6143
4:i9-CV-00562, 20*20027

in

TABLE OF CONTENTS
OPINIONS
BELOW....

1

JURISDICTION.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED ........................................................................

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

30

INDEX TO APPENDICES
APPENDIX 1

Fifth Circuit Court Opinion and Decision

APPENDIX 2

District Court Final Judgment Order

APPENDIX 3

Fifth Circuit Court Decision on Petition for Rehearing

APPENDIX 4

Amended Memorandum and Recommendation and Order
of Adoption

IV

TABLE OF AUTHORITIES CITED
PAGE

CASES
Travelers Ins. Co. v. St. Jude Hosp. of Kenner, La., Inc., 37 F.3d 193,
195 (5th Cir. 1994).
Lawlor v. National Screen Service Corp., 349 U.S. 322 (1955)
State of Ohio ex rel. Susan Boggs, et al. v. City of Cleveland, 655 F.3d
516 (6th Cir. 2011)
Burbrooke Mfg. Co. v. St. George Textile Corp., 283 A.D. 640, 641-44,
129 N.Y.S.2d 588, 589 (1954)
United States v. Utah Constr. & Mining Co., 384 US. 394, 422 (1966)
United States v. Throckmorton, 98 US. 61 (1878)
Snyder v. Massachusetts, 291 U.S. 97, 105 (1934).
Goldberg v. Kelly, 397 US. 254, 267 (1970
Mooney v. Holohan, 294 U.S. 103 (1935)

6
8
8
8
10
10
12
12
12
14
20
22
22
23
24
26
27

Napue v. Illinois, 360 US. 264 (1959
Lipinski et. al. v. Meritage Co., Civil Action No. H’10-CV-605
Apter v. Ross, 781 N.E.2d 744 (Ind.App. 2003)
Johnson v. Weld Couty., 594 F.3d 1202, 1210 (10th Cir. 2010),
Haines v. Kerner, 404 U.S. 519, 520-21 (1971)
Bramlet v. Wilson, 495 F.2d 714 (8th Cir. 1974)
Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991).
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802-05 (1973)
28
Bienkowski v. American Airlines, Inc., 851 F.2d 1503 (1988).
Karppinen v. Karl Kiefer Machine, 187F.2d 32 (2nd Cir. 1951)
28
Newark Stereotypers Union No. 18 v. Newark Morning Ledger Co., 397F.2d 594,
598 (3rd Cir. 1968)
28
Stridiron v. Stridiron, 698F.2d204 (3rd Cir. 1983)
28
Bryant v. Compass Group USA, Inc., 413 F.3d 471, 478 (5th Cir. 2005)
28
Lipinski et. al. v. Meritage Co., Civil Action No. H-10-CV-605
Reeves v. General Foods Corp., 682 F. 2d 515 (1982)
Rozier v. Ford Motor Co., 578 F.2d 871 (5th Cir. 1978)
Salazar v. Cargill Meat Solutions Corp., 5th Cir., No. 15-10097 (Oct. 8.
2015)
Sandstad v. CB Richard Ellis, Inc., 309 F.3d 893, 901 (5th Cir. 2002)
Wallace v. Methodist Hosp. Sys., 271 F.3d 212, 220 (5th Cir. 2001)

v

29
28
28
28
28
28

STATUTES AND RULES
Fourteenth Amendment

3,,26

First and Eighth Amendment

4.. 26

Fifth Amendment

20,21

Title VII

3

ADEA

3

29 U.S.C. Section 623 (a)(1)

3,8

28 U.S.C. Section 1621-1623

8, 19

Fed. R. CIV. P. 56

3, 23

Fed. R. Civ. P. 60

4, 16

Fed. R. Civ. P. 15

4

Fed. R. Civ. P 37

14

Fed. R. Civ. P 26

14, 15,21
15, 16, 18,21

Fed. R. Civ. P 5&25
Fed. R. Civ. P 11

15

Fed. R. Civ. P 19

16

Fed. R. Civ. P 59

16

Fed. R. Civ. P 55

19

vi

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.

OPINIONS BELOW
[ x] For cases from federal courtsThe opinion of the United States court of appeals appears at Appendix
1 to the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x ] is unpublished.
The opinion of the United States district court appears at Appendix 2 to
the petition and is
> or
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x ] is unpublished.
[ ] For cases from state courtsThe opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
at ; or,
[ ] reported
[ ] has been designated for publication but is not yet reported; or, [ ]
is unpublished.
court

The opinion of the__
appears at Appendix

to the petition and is

or,
[] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

JURISDICTION
[x ] For cases from federal courtsThe date on which the United States Court of Appeals decided
my case was February 10,2021
[ ] No petition for rehearing was timely filed in my case.
[ x] A timely petition for rehearing was denied by the United
States Court of Appeals on the following date: March 8, 2021, and
a copy of the order denying rehearing appears at Appendix 3.
[ ] An extension of time to file the petition for a writ of certiorari
The jurisdiction of this Court is invoked under 28 U. S. C. §
1254(1).
[ ] For cases from state courts:
The date on which the highest state court decided my case was
____________ _ A copy of that decision appears at Appendix

[ ] A timely petition for rehearing was thereafter denied on the following
date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was
(date)
granted to and including (date) on
in

Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. §
1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourteenth Amendment to the United States Constitution provides
in relevant part:
... nor shall any state ... deny to any person within its jurisdiction equal
protection of the laws.
Title VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e-2(a)(l)
provides in relevant part:
...[i]t shall be an unlawful practice for an employer ... to fail or refuse to
hire or to discharge any individual, or otherwise to discriminate against
any individual with respect to his compensation, terms conditions, or
privileges of employment, because of such individual’s race, color,
religion, sex, or national origin.
The Age Discrimination in Employment Act of 1967 (“ADEA”), 29 U.S.C.
623 (a)(1) provides in relevant part:
It shall be unlawful for an employer ... to fail or refuse to hire or to
discharge any individual with respect to his compensation, terms,
conditions, or privileges of employment, because of such individuals' age.
42 U.S.C. § 1981 provides in relevant part:
...all persons ... shall have the same right to make and enforce contracts ...
enjoyed by white citizens.
“The court shall grant summary judgment if the movant shows that there
is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a).

3

STATEMENT OF THE CASE
On February 19, 2019, Plaintiff Fan Gu filed lawsuit 4:l9-cv-00562, to
reopen the age discrimination case and seek relief from Civil judgments per
FRCP 60(b) as prior judgment was not on the merits and fraudulent scheme
happened in the previous case 4-15-cv00240.
Defendant did not response the lawsuit on timely manner and was
default on April 15, 2019. Plaintiff moved for a default judgment, The District
court ordered to have the default hearing on June 5, 2019, Defendant INVISTA
S.A.R.L filed two motions on May 30, 2019 to ask Court to excuse of default as
the new party, The Lycra Company did not response the summon, deny
Plaintiffs motion for entry of default judgment and dismiss the case, Plaintiff
filed motion against Defendant’s motions on June 3, 2019 to summit evidences
and dispute Defendant excuse evidence (Declaration from Mr. Chuck
Blocksige’s declaration) and Res Judicata statement, The Court “rushed” and
“vacated” default hearing without notified Plaintiff, and erred entering the
order denied entry of default judgment, on June 4, 2019, just few hours before
the scheduled default judgment hearing. The District court did not review,
examine and verify Mr. Blocksige’s declaration, nor have any evidences to show
Defendant INVISTA had excusable reasons for default. At the date, the District
court even did not know who was the “buyer” and if INVISTA ever “promptly
forward a copy of the Complaint to the buyer”.
Pursuant to Rule 15 of the Federal Rules of Civil Procedure, Plaintiff
filed Motion to Amend Complaints on June 17, 2019 to add civil rights violation
and discrimination Pro Se as additional claims. Judge Peter Bray granted the
motion to amend the complaints, On July 1, 2019, Plaintiff amended his
complaint and added three complaints into to the case, including age
discrimination, perjury, violations of firth, eighth and fourteenth amendment
rights, and discrimination Plaintiff Pro se.
On August 15, 2019, the district court issued Memorandum and
Recommendations with Judge Peter Bray’s signature on it. Judge Peter Bray
denied Plaintiffs motion, to verify the memo and signature since there were
not only lots of mistakes and false statements in the document, but also showed
identical signatures with two other orders. The three identical signatures were
difference with Judge Peter Bray’s “normal” signatures on Court files. No one
in the world can sign his/her name exactly the same way twice. Mr. Jason
Marchand, Judge Bray’s case manager confirmed with Plaintiff that Judge
4

Bray did sign the documents and no stamps or electronic signature used. The
district clerk also confirmed that there is no regulation and rule in district
court for using stamps or electronic signature. The signatures of Judge Bray
were forged based on comments from two experts of document examiners
Plaintiff consulted. The Memorandum and Recommendations did not address
or comment on any of Plaintiffs evidences of fraudulent scheme happened,
including crime of perjury, forge documents, and contempt court order. It did
not address or commend on any exception to the Res Judicata rule based upon
the principle that a fraudulent scheme happened, no opportunity to be heard,
trials and due process were denied. It did not make any comment regarding
due process and claim of discrimination Plaintiff Pro se.
On August 30, 2019, Judge David Hittner adopted Judge Peter Bray’s
Memorandum and Recommendations, denied Plaintiffs motions and erred
issuing the order to dismiss the case with prejudice.
After submission of the appeal on the parties’ briefs, a panel of Fifth
Circuit held that “Because Gu’s entire appeal lacks an arguable legal basis for
granting relief, we Deny leave to proceed IFP and DISSMISS the appeal as
frivolous.”
Gu brought a Petition for Panel Rehearing. Once again, the Panel
issued the order to deny Gu’s request for rehearing on March 23, 2021.
In reaching above conclusions, District Court and Fifth Circuit Panel did
not discuss any Gu’s evidences and arguments.

REASONS FOR GRANTING THE PETITION
A panel of Fifth Circuit fail to exam all the arguments and evidences Gu
provided and did not address any of Gu’s arguments as followings,
• The Fifth Circuit court fail to reverse district court erred issued orders
to claim that PlaintiffAppellant’s claims are barred by Res Judicata.
• The Fifth Circuit court fail to reverse district court denied due process
and allowed fault, misconducts and crime of perjury, forgery and

5

•
•
•

•
•
•

•

contempt court orders in the lawsuit, discriminated Plaintiff in court
proceedings.
The Fifth Circuit court fail to reverse district court denied new party The
Lycra Company as defendant and new trial.
The Fifth Circuit court fail to reverse district court erred denied
Plaintiffs Motion for Default Judgment.
The Fifth Circuit court fail to reverse district court allowed fraudulent
scheme, crimes, civil rights violation, discrimination Plaintiff Pro se
happened.
The Fifth Circuit court fail to reverse district court used inadmissible
evidence to issue final judgment order and abused of discretion.
The Fifth Circuit Exceeded Its Powers and Acted as a Trier of Fact by
Determining Relevance of Unproduced, Unreviewed Evidence
The Fifth Circuit did not follow McDonnel Douglas Framework and
Decision in Previous Case Created a Direct and Substantial Circuit Split
Regarding Age Discrimination Cases
Fifth Circuit's Decision Countenances Crimes and Begs For This
Court’s Supervisory Powers

Arguments of Reasons For Granting the Petition

I.

PlaintiffiAppellant’s claims are not barred by Res Judicata
A. Plaintiff/Appellant’s Claims are not Barred by Res Judicata Rule

In his Memorandum and Recommendations, ROA. 253-254, Judge Bray
states- u“[A]n action is barred by the doctrine of res judicata if l) the parties
are identical in both actions; 2) the prior judgment was rendered by a court of
competent jurisdiction; 3) the prior judgment was final on the merits; and 4)
the cases involve the same cause of action.” Travelers Ins. Co. v. St. Jude Hosp.
of Kenner, La., Inc., 37 F.3d 193, 195 (5th Cir. 1994). Cases involve the same
cause of action when the plaintiff bases the claims on the same nucleus of
operative facts. In re Howe, 913 F.2d 1138, 1144 (5th Cir. 1990).
Using the standard Judge Peter Brays stated above, Plaintiff/Appellant’s
claims should not be barred by Res Judicata:
6

There is a new party involved in this case.
1)
According to Invista’s reason for default judgment by Mr. Chuck
Blocksidge’s declaration, ROA. 55*56: “On January 31, 2019, INVISTA sold its
apparel and textile business, including the LaPorte, Texas facility where Mr.
Gu previously worked, in a stock transaction to an unrelated third party. As
part of the sale, the buyer assumed the associated debts, obligations, and
liabilities”.
Based on the sale agreement, the buyer, The Lycra Company LLC has to
be the new party and New Defendant. The company is an independently
managed, wholly owned subsidiary of Shandong Ruyi Investment Holding, a
public traded company.
As the parties are different and not identical in both present and
previous lawsuits, Plaintiff did not sue the same party in both actions.
2)
Cases filed at different State and Federal Courts
Plaintiff has filed the previous case, 4'15-cv240 in Texas State court due
to INVISTA’s La Porte site control center is in Texas. The case should not be
moved to Federal Court as Plaintiff previous argued and disputed by appealing
at 5th Circuit court for this jurisdiction issue. Plaintiff filed current suit in
federal court.
The prior judgment was not on the merits.
3)
The key and only evidence Defendant used in the Summary Judgment
order was the white board event on October 24, 2013. Plaintiff provided photo
evidence, to prove this Defendant’s key evidence was false and inadmissible.
Defendant wittiness Grant Pittman even refused to answer any question
related to this photo evidence during his deposition. After deposition, Mr.
Pittman made his declaration under oath and stated that all the
evidence/statement were true, from which he committed perjury. This
Defendant’s key evidence and other evidences were inadmissible evidence per
Federal Rules of Evidence. Based on Rule 56, Summary Judgment should not
be granted if there is genuine dispute, the movant is not entitled to judgment
as a matter of law. Not only the summary judgment should not be granted, but
also Defendant’s witnesses committed perjury and misconducts should be
punished.
4)
Current case involves the different cause of action.
The previous case had one age discrimination action. In current case, it
contained four causes of action against Defendant7

a) Age discrimination under 29 U.S.C. § 623(a)(1),
b) Perjury under 18 U.S.C. §§ 1621-23,
c) Violations of his First, Eighth, and Fourteenth Amendment rights, and
d) Discriminated Plaintiff pro se.
Based on the standard and facts stated above, current case involved new
party, filed in different courts, no merits judgment issued and involved three
more actions. Therefore, current case should not be barred by the doctrine of
Res Judicata.
B. The Exception for the Res Judicata Rule
As the Supreme Court explained more than 65 years ago in Lawlor v.
National Screen Service Corp., 349 U.S. 322 (1955), res judicata does not bar a
suit, even if it involves the same course of wrongful conduct as alleged earlier,
so long as the suit alleges new facts or a worsening of the earlier conditions.
The Res Judicata should not bar a suit if the current complain raises new
facts that do not arise out of the same “Transaction or Occurrence” and the new
complain raises claims that could not have been raised in the prior litigation,
State of Ohio ex rel. Susan Boggs, et al. v. City of Cleveland, 655 F.3d 516 (6th
Cir. 2011)
In current lawsuit, Plaintiff has stated and argued many times that
current lawsuit is not a case of Res Judicata in his Motions ROA. 67, 79,198,
222.
1) Principle that a fraudulent scheme happened
In current case, the only repeat claim of age discrimination should be
exception to the Res Judicata rule based upon the principle that a fraudulent
scheme happened.
“The exception to this rule (Res Judicata), however, is based upon the
principle that a fraudulent scheme which is greater in scope than the issues
that were determined in the action or proceeding may become the basis of an
action”. 37 N.Y.2d at 217, 333 N.E.2d at 167, 371 N.Y.S.2d at 889 (quoting
Burbrooke Mfg. Co. v. St. George Textile Corp., 283 A.D. 640, 641-44, 129
N.Y.S.2d 588, 589 (1954)).

8

In the previous case, Defendant has been using false “performance”
evidence as pretext to terminate Plaintiff, despite Plaintiff has provided many
evidences to prove he was qualified the job and had a good performance, see
Plaintiffs Opposition to Motion for Summary Judgment for details (Gu I, Dkt.
41). Defendant INVISTA worked “closely” with Judge Hittner and acted as
judge function as state actor by denying due process for Plaintiff by various
tricks including committed misconducts (ex parte communication) and even
crimes (perjury, forgery and contempt court orders), which were prohibited by
law and violated Plaintiffs constitution rights. The order not only did not
review and discuss any of Plaintiffs 48 contended facts and arguments listed in
joint pre-trial order and all the objections listed on Plaintiffs motion against
Summary Judgment but also failed to review and examine the only key false
inadmissible statement (as evidence) provided by Defendant in Mr. Grant
declaration (committed perjury) with Plaintiffs photo evidence and other 44
false statements evidences without hearing or trail. Fifth Circuit Court and
Supreme Court did not review the disputes and examine the key photo evidence
in the record as comparison with Defendant’s false inadmissible statements and
erred affirmed the Fifth Circuit court fail to reverse district court decision by
using the false and inadmissible “evidence” and allowed the fraudulent scheme
happened in the previous lawsuit.
2) Opportunity to be heard, trials and due process denied
For Res Judicata to be binding, several factors must be met including
whether the parties were given full and fair opportunity to be heard on the
issues. In addition, in matters involving due process, cases that appear to be
res judicata can be re-litigated.
The policy of finality of judgments underlying the rule does not apply
since the second action is based on an issue, namely, the existence of a
fraudulent scheme-broader than that decided in the first action. Since collateral
estoppel does not apply to issues yet to be litigated, we would expect the
common law to have developed this exception.
Similarly, if the trier of fact relied on a witness's testimony in reaching
its decision, then it necessarily determined the essential issue of fact that the
witness did not commit perjury. When insufficient evidence to the contrary is

9

introduced by the opposing party at trial or on direct attack, the issue whether
a party has misrepresented facts is finally adjudicated.
The procedural safeguards associated with trials generally ensure that
perjury, if it occurs, will be discovered and brought to the court’s attention.
First, in no investigation does a "party" have as ample an opportunity to
cross-examine another "party" as he would have in a court. Certainly, Plaintiff
in previous case, for example, had no opportunity for cross-examination because
no hearing or trial allowed and occurred. Cross-examination is crucial to
uncovering any fraud or misrepresentation in the testimony. Without an
effective opportunity to cross-examine witnesses, Plaintiff was at a serious
disadvantage in trying to uncover misleading statements or fraud documents
and statements created by perjury and forgery.
Effective cross-examination requires adequate discovery procedures.
However, the Fifth Circuit court fail to reverse district court denied Plaintiffs
right to complete discovery, including Grant Pittman’s deposition, compel
defendant to summit full requested documents, such as Ron Ellerbeck’s
performance review report, evidences and authentication of exhibits listed by
Defendant in pre-trail order including all Grant Pittman’s email notes.
The advent of the liberal pre-trial discovery provisions of the Federal
Rules of Civil Procedure has been widely recognized as a major innovation
contributing toward increased equity. Without discovery, a party will often be
powerless to determine whether an adverse party is misrepresenting or
omitting material facts in its presentation.
These observations were considered by the limited application for the
doctrine of res judicata to administrative agency actions. Res judicata applies
only when the agency "is acting in a judicial capacity, and resolves disputed
issues of fact properly before it which the parties have had an adequate
opportunity to litigate. United States v. Utah Constr. & Mining Co., 384 U.S.
394, 422 (1966).)
The rule against civil actions for perjury is closely related to the doctrines
and policies of res judicata and collateral estoppel. Significantly, courts have
recognized that the rule against civil actions for perjury assumes that the
injured party had a fair and full opportunity to present its case in the
proceeding where the perjury occurred. For example, the Supreme Court in
United States v. Throckmorton, 98 U.S. 61 (1878).

10

The rule against civil actions for perjury is grounded in the policy of the
finality of judgments, and the doctrines of Res Judicata and collateral estoppel.
In deciding whether to apply the rule, the best guide is the established body of
precedents regulating the application of those related doctrines. The
justification for the use of those doctrines diminishes as the opportunity for a
full and fair determination of the facts in question wanes.
In the previous case 4:15'cv-00240, Plaintiff had no opportunity to
complete the discover proceedings due to Defendant’s contempt court order to
refuse some key document production, refuse answer questions during
depositions. There was no completed discovery, no chance to cross-examine
witnesses, and even worst, the Summary Judgement was drafted by Defendant
which not only contained false inadmissible evidence and statements but also
not be served to Plaintiff. It did not address any of Plaintiffs 48 contented facts
and questions listed in joint pre-trail order!
To support reopen the case, Plaintiff had newly discovered and yet to be
discovered evidence that could not have been discovered before. Plaintiff has
submitted the new evidences to support the case and claims in court filing.
However, the Fifth Circuit court fail to reverse district court erred to deny all
of Plaintiffs motions without any explanations.
In summary of all mentioned above, current case should not be barred
by the doctrine of Res Judicata.
II.

Due Process denied and Discrimination in Court Proceedings

The Fifth Circuit court fail to reverse district court allow frauds, faults
or crimes of perjury, forgery, contempt court order and discrimination of
Plaintiff Pro se at civil court proceeding happened without subject to adequate
judicial review, correction, sanction and punishment.
In the current as well as previous case, Defendant has been trying many
ways to delay the case proceedings, contempt court order to summit production
documents, refuse answer deposition questions, forge documents, provide false
statements during depositions and declarations, committed fraud and perjury,
constructed faulty court orders to not only obstruct justice but also deny
Plaintiffs rights under the First, Eighth and Fourteenth Amendments of the
United States Constitution. Plaintiff was denied the fundamental
11

constitutional right of equal access to due process and equality under the courts
and even punished for filing valid and legitimate motions.
l) There is no due process in the case
Due process is essentially based on the concept of "fundamental fairness".
For example, in 1934, the United States Supreme Court held that due process
is violated "if a practice or rule offends some principle of justice so rooted in the
traditions and conscience of our people as to be ranked as fundamental", Snyder
v. Massachusetts, 291 U.S. 97, 105 (1934). As construed by the courts, it
includes an individual's right to be adequately notified of charges or
proceedings, the opportunity to be heard at these proceedings, and that the
person or panel making the final decision over the proceedings be impartial in
regard to the matter before them. Goldberg v. Kelly, 397 U.S. 254, 267 (1970).
The Due Process Clause of the Fourteenth Amendment to the United
States Constitution provides[N]or shall any State deprive any person of life, liberty, or property,
without due process of law ...
The Supreme Court of the United States has repeatedly addressed
whether the Due Process Clause of the Fourteenth Amendment is violated
when prosecutors knowingly use false testimony in a criminal trial. In 1935,
the Supreme Court briefly wrote in Mooney v. Holohan, 294 U.S. 103 (1935)
that prosecutors violate the Due Process Clause if they knowingly present
perjured testimony.
Fifth Circuit court fail to reverse district court vacated the default
judgment hearing scheduled on June 5, 2019, cancelled initial conference, ROA.
156, issued the order denying Motion for Hearing ROA. 176. There is no hearing,
no trial nor conference and Judges make orders solely based on defendant’s
false inadmissible declaration as evidence. All of Plaintiffs arguments and
motions were denied.
Plaintiff had no opportunity to complete or start discovery proceeding,
no hearing and no chance to cross-examine witnesses, and even worst, the
Summary Judgement was drafted by Defendant in previous case which not be
served to Plaintiff (it is misconduct of ex parte communication). The Fifth
Circuit court fail to reverse district court ignored and did not address any of
Plaintiffs 48 contented facts and questions listed in joint pre-trail order! The
12

only “factual evidence” listed in Summary Judgment was false statement which
Defendant witness Mr. Grant Pittman refused to answer the related questions
comparing with Plaintiffs photo evidence during his deposition. After
deposition, Mr. Pittman made his declaration under oath that all the
evidence/statement were true. Plaintiffs photo and other evidences in court file
would prove Mr. Pittman’s declaration had many false statements including the
only “factual evidence” used in summary judgment order, and Mr. Pittman
committed perjury. Plaintiff received court notice of Summary Judgment just
two days before the scheduled pre-trail hearing. No trial nor hearing was
granted in Fifth Circuit and Supreme Court appeals. Both courts erred affirm
lower court order or dismiss the appeals without reviewing the faulty court
proceedings, genuine dispute on material facts and even used false and
inadmissible evidence to affirm or dismiss the appeals. Almost every Plaintiffs
motion was denied without explanation. Evidences of no due process and
discrimination against Plaintiff Pro Se were listed and could be reviewed in
detail from Plaintiffs Motion to Amend Claim, ROA. 112-116.
2) Fifth Circuit court fail to reverse district murt allowed misconducts.
faults, primes of periurv. forgery, contempt court order during the court
pmeftftdinffft without correction and punishment.
Plaintiff averred there should be evidences and documents from FBI/US
Attorney investigations to substantiate his allegations that Defendant
fraudulently procured a favorable court decision. Plaintiff submitted his
evidence regarding fraud and crime and arguments in motions to District court
many times. However, Fifth Circuit court fail to reverse district court denied
all the motions Plaintiff filed and refused to investigate, review and resolve any
outstanding issues of facts, including genuine disputes of material facts, frauds,
misconducts and crimes committed by Defendants.
The Fifth Circuit court fail to reverse district court ruling countenances
fraud, crimes and denies judicial review despite unresolved allegations and
evidence regarding fraud and crime. Plaintiff repeatedly averred there is
evidence that demands review to resolve the issue of fraud and punish crime of
discrimination, perjury, forge documents and contempt court order. Plaintiff
has searched hundreds age discrimination cases preceded at US Supreme

13

Courts reported in Westlaw database and find no single case involved perjury,
forge document and contempt court order allowed in court proceedings!
Plaintiff has filed a motion, ROA. 259 on August 20, 2019 to request the
court validate and confirm Judge Bray’s order/memos for forged documents as
there are three documents shows exactly signatures and many mistakes and
false statements in the memo. Mr. Jason Marchand confirmed with Plaintiff
that Judge did sign the documents and no stamps or electronic signature used.
The district clerk also confirmed that there is no regulation and rule in district
court for using stamps or electronic signature. The motion was denied by the
Order denying Motion to Verify and Confirm Judge Peter Bray’s Orders and
Signatures without any explanation, ROA. 281.
Plaintiff has filed motion to request the court to investigate the crime of
perjury and forgery in the lawsuit, ROA. 364. The court issued order, ROA. 369
denied it without any explanation.
Fifth Circuit court fail to reverse district court issued Order denying
Motion to Vacate ROA. 317, Order denying Motion for New Trail ROA. 356,
Order denying Motion for Leave to file Motion to Reconsider for New Evidences
ROA. 377, without any explanation.
Plaintiff has reported a forged court order/memo complaint to FBI/DOJ
Houston for investigation and charge the crime!
Napue v. Illinois, 360 U.S. 264 (1959), was a United States Supreme
Court case in which the Court held that the knowing use of false testimony by
a prosecutor in a criminal case violates the Due Process Clause of the
Fourteenth Amendment to the United States Constitution.
In both current and previous cases, the Fifth Circuit court fail to reverse
district court held that the knowing use of false inadmissible statement as
evidence violated the Due Process Clause of the Fourteenth Amendment of US
Constitution.
3) Plaintiffs Motion to compel and sanctions were denied but punished for
filing proper motions
Pursuant to FRCP Rule 37 (a) and Rule 26 (a), Plaintiff filed motion to
move for an order to compel Defendant INVSITA S.A.R.L to disclosure and
sanctions, ROA, 131. Defendant has not disclosed the name of third party until
June 25, 2019. On January 31, 2019, INVISTA sold its apparel and textile
14

business, including the LaPorte, Texas facility where Plaintiff previously
worked to a third party. “As part of sales, the third party assumed the
associated debts, obligations, and liabilities of INVISTA’s apparel and textile
business”. However, Defendant has not disclosed any details information
regarding the party and agreement per FRCP rule 5, 25 and 26.
The Fifth Circuit court fail to reverse district court issued Order for
Conference and Disclosure of Interested Parties on June 5, 2019, ROA. 84. The
order required Counsel shall file with the clerk within fifteen days from receipt
the order a certificate list all persons, associations of persons, firms,
partnerships, corporations, affiliates, parent corporations, or other entities that
are financially interested in the outcome of this litigation. As of June 24, 2019,
Defendant has not filed any disclosure of interested parties. Failure to comply
with the order, ROA. 84, should result in sanctions, including dismissal of the
action and assessment of fee and cost.
Not sanctioned and punished Defendant, the Fifth Circuit court fail to
reverse district court Judge Peter Bray erred entering an order to grant
INVISTA’s motion for Sanctions against Plaintiff in part, ROA.357. Plaintiff
has filed all his motions in good faith and should not be sanctioned per FRCP
11. A court should not impose sanctions on a party for filing valid and legitimate
motions. Judge Bray’s order did not list any reason and the sanction and order
was not justified. Instead of punishing crimes and misconducts, the Fifth
Circuit court fail to reverse district court let them prevail in the court
proceedings. It is very disgraceful and unacceptable, from which the justices
were not served!
III.

The Lycra Company LLC Should be Defendant for New Trail

As mentioned above and court filing, The Lycra Company LLC would
“assumed the associated debts, obligations, and liabilities of INVISTA’s apparel
and textile business” and “would respond the defend the lawsuit”, ROA.55.
It is important to have the proper parties named in a civil lawsuit. Courts
require that civil lawsuits be brought by "the real party in interest", which
means that the party suing is legally entitled to seek the relief requested. Since
INVISTA sold its business to the new party, the buyer assumed the associated

15

all debts, obligations, and liabilities of INVTSTA’s business, therefore, INVISTA
would have no good standing in this case.
There is no motion filed or order entered to approve or authorize
INVISTA to represent the new party The Lycra Company LLC as Defendant.
Accordingly, Plaintiff has filed the 2nd Amended Complaint, ROA. 282 per
FRCP 25 and Motion for Joinder of the Parties, ROA. 314-315 per FRCP 19, to
change Defendant from INVISTA S.A.R. L. to The Lycra Company LLC or add
as the Defendant (third party). However, Plaintiffs motion was denied and
stroked per orders issued by Judge David Hittner, ROA. 292, 317.
Because the new Defendant of The Lycra Company, not INVISTA, has
the ultimate legal responsibility for the lawsuit per the sales agreement, all the
court orders should be vacated or reversed and new trial should be granted.
IV.

Motion for Default Judgment Should be Granted

The Court erred entering order denied entry of default judgment, ROA.
75 on June 4, 2019. Plaintiff files Motion to request the Court vacate Order of
Entry Default Judgment, ROA. 85 on June 11, 2019 under the authority of
Federal Rule of Civil Procedure 59, 60. There is no admissible evidence showed
Defendant had excusable cause to not response the court summons, court
preceding and filed the Court for Transfer of Interest with the time limit and
committed Default. In support, Plaintiff has respectfully files the motion to
oppose Defendant’s motion to response in opposition Motion for default
judgment. The highlights for Plaintiffs objection are followings,
Defendant does not have good standing on this case
1)
Based on Mr. Blocksidge’s declaration statement #4, “On January 31,
2019, INVISTA sold its apparel and textile business, including the LaPorte,
Texas facility where Mr. Gu previously worked in a stock transition to an
unrelated party. As part of the sale, the Buyer assumed the associated debts,
obligations, and liabilities of Defendant’s related business.” This is false and
contradicting statement. Based on the news issued by INVISTA, the La Porte
facility was an asset sale not stock sale. An unrelated third party could not
assume liabilities. Furthermore, Defendant did not file or serve any motion to
inform Court, Plaintiff and update new interest party per FRCP Rule 5 and 25.
INVISTA does not have good standing on this lawsuit.

16

There is no evidence shows that INIVSTA promptly forwarded a
2)
copy of the Complaint, to the Buyer
No supporting to Mr. Blocksidge’s statement, INVISTA did not provide
any serve or forward evidence to show the court when, who and what method
used to forward the complaint to the Buyer. Based on contacts and information
source from the Lycra Company, it did not know the current lawsuit nor
received any summon and court documents from INVISTA.
Almost every statement in Mr. Blocksidge’s declaration were false
3)
Mr. Blocksidge’s declaration contained at least 4 and up to 6 false
statements. The Fifth Circuit court fail to reverse district court ignored
Plaintiffs dispute and did not verify, confirm and investigate those statements
even after Plaintiff filed motion, ROA. 67 to against the declaration before the
default judgment order, ROA. 75 issued.
A declaration must be based on the declarant’s personal knowledge. The
personal knowledge requirement for a declarant is minimal. Plaintiff and Mr.
Blocksidge did not know each other in the past nor had any interaction with
each other. Mr. Blocksidge did not have personal knowledge for the related
matters including Plaintiffs hiring and job. Hearsay statements in a
declaration would be inadmissible. The declaration must set out facts that
would be admissible in evidence at trial. Based on the facts listed above, Mr.
Blocksidge’s declaration did not show that he was competent to testify on the
matters stated in the declaration. His declaration was invalid and fault from
which he committed crime of perjury. Plaintiffs motion listed details of Mr.
Blocksidge’s false statements in his declaration, ROA. 67.
Defendant did not respond the lawsuit in timely manner
4)
Defendant was informed the lawsuit as early as February 8, 2019.
Default date is April 15, 2019. Defendant filed motion to response ROA.44 on
May 30, 2019, more than 110 days, which contained false statements,
unacceptable reason and fault declaration without evidence to back up.
Defendant’s untimelinesa offended and discriminated Plaintiff Pro
5)
Se
Defendant’s untimeliness delayed lawsuit and court proceeding
including not serve Plaintiff, not summited required filings, and made false
statements under oath offended and discriminated Plaintiff Pro se.
6)

The lawsuit is not a case of Res Judicata

17

This case is not Res Judicata as argued above. Plaintiff have provided
many arguments about Res Judicata and reasons for re-open the case as above
section mentioned. To support reopen the case, besides fraud or misconduct and
even crime, Plaintiff had provided newly discovered and yet to be discovered
evidence that could not have been discovered before, see details in Exhibit 4 of
Dkt. 21 (ROA. 96-99)
Statutes of limitation is not an issue to object
7)
The previous lawsuit filed in December 2014, and appeal proceeding was
moving to US Supreme Court, which denied hearing writ of certiorari in
February 2018. Plaintiff filed this lawsuit to reopen the case in February 2019.
There are no statutes of limitation for reopen the case less than one year.
The default cut off defendant's right to file a motion to dismiss
8)
Plaintiff filed the lawsuit and timely served to Defendant. Defendant
fails to answer the complaint or file a motion to dismiss beyond the time limit
set forth in the summons, the defendant is in default on April 15, 2019. The
Default cut off Defendant’s right to file a motion or appear in the lawsuit unless
Defendant has a good explanation for why it failed to respond on time. Assume
new party would response the suit was not good explanation at all. Therefore,
the Defendant’s motions to dismiss Dkt. 16, and 41 (ROA. 58, 187) are invalid
and must be denied.
Furthermore, as of today, Defendant has not provided any information
and evidence to prove it has good standing on this lawsuit, and has authority
to file motions, ROA. 58, 187 to dismiss the case. The reasons Defendant
provides to explain the reasons for default were proved to be false. Mr. Chuck
Blocksidge, Associate General Counsel, committed perjury per his Declaration
dated on May 30, 2019, ROA. 55-56. Besides filing motions to object this in the
District court, Plaintiff has also filed the perjury complaint to FBI/DOJ for
investigation and charge the crime!
In summary, there is no admissible evidence showed defend INVISTA
has excusable cause to not response the court summons, response court
preceding and filed the Court for Transfer of Interest, according to FRCP Rule
5 and 25. Comparing with Plaintiffs admissible evidences, Mr. Blocksidge has
made at least four false statements in his declaration dated on May 30, 2019
and two false and contradicting statements to be verified and cross examined.
Based on facts and evidences provided in documents this case, Plaintiff
respectfully requests this Court vacate and reverse the order of deny entry of
18

default judgement, ROA. 75 and reschedule the default hearing to cross exam
any related evidence Defendant could present if it is able to. If Defendant
cannot provide any admissible evidences to explain the cause of default and
cannot establish good standing, the court should issue Default Final Judgment
and grant it all relief, to which Plaintiff is entitled per FRCP rule 55.
Fraudulent scheme, crimes, civil rights violation, discrimination
Plaintiff Pro se
1) Fraudulent scheme and crimes happened and reported
Plaintiff has been reporting and complaining that fraudulent scheme,
crimes, civil rights violation and discrimination Plaintiff Pro se happened and
allowed in current and previous lawsuits many times in the District court.
However, the Fifth Circuit court fail to reverse district court ignored the
complains and did not investigate any of those complains, furthermore and
worse, the court even did not acknowledge the issues exist and questioned
Plaintiff ever raised or filed objection. Judge Peter Bray made following false
statements in his Memorandum and Recommendations“The same is true of Gu’s perjury and constitutional claims. These claims
are nothing more than complaints about how Invista litigated Gu I. Gu does not
explain why he could not raise questions about false testimony or documents
during the pendency of Gu I. Nor does Gu explain why he could not have filed
objections based on lack of access to the court when he believed the problem
arose.” ROA. 245-246.
Judge Bray’s above statements are false and disgraced because he should
know these complains as he reviewed all the court filings and granted Plaintiff
motion to amended claims on June 28, 2019, ROA. 112, 156, unless those above
statements were not written by him. Plaintiff has been raising the false
testimony, forge documents and contempt court orders many times and even
reported to FBI and DOJ for investigations.
2) Grimes of Perjury. Forgery and Contempt Court Orders Committed bv
Defendant
Perjury, forge documents and contempt court order are serious
crimes. Plaintiff has filed the claims in FBI and DOJ Houston per 18 U.S.C. §
1621-1623. In this case, Plaintiff has amended complaints and claims upon
which relief should be granted and criminal prosecution handled by FBI/US
attorney office and court.
V.

19

Houston woman Amy Fisher was indicted and committed perjury on Nov.
17, 2014, during her deposition and trial testimony related to the civil trial of
Lipinski et. al. v. Meritage Co., Civil Action No. H'10-CV-605. The judge
ordered FBI/DOJ investigation and Ms. Fisher was convicted for perjury and
punished.
As mentioned above many times, Plaintiff has filed the motions and
complaints regarding the crime of Perjury (Mr. Blocksidge’s false statements),
forgery court documents including Judge Bray’s signatures and contempt court
order by refusing and delaying court filings, see details in Plaintiffs court
filings. The Fifth Circuit court fail to reverse district court refused to
acknowledge, review, investigate, correct and punish those fraudulent schemes,
faults, and crimes.
3) Civil Rights Violation and Due Process Clause
Plaintiff has provided detailed arguments in his Motion to amend claims,
ROA. 112 which granted by Judge Bray on June 28, 2019, ROA. 156. “In United
States law, a state actor is a person who is acting on behalf of a governmental
body, and is therefore subject to regulation under the United States Bill of
Rights, including the First, Fifth and Fourteenth Amendments, which prohibit
the federal and state governments from violating certain rights and freedoms.”
In the previous case, Defendant has been using false “performance”
evidence as pretext to terminate Plaintiff, despite Plaintiff has provided many
evidences to prove he was qualified the job and had a good performance, see
Plaintiffs Opposition to Motion for Summary Judgment for details (Gu I, Dkt.
41). Defendant INVISTA worked “closely” with Judge Hittner and acted as
judge function as state actor by denying due process for Plaintiff by various
ways including committed misconducts and even crimes, which violated
Plaintiffs constitution rights.
In current lawsuit, Defendant provided a false declaration as an evidence
to have judge Hittner issued the order, ROA. 75 to deny Plaintiffs motion for
default judgment, ROA. 41. By the further discovery, Plaintiff would provide
more evidences to prove Defendant’s state actor role in current and previous
cases.
As mentioned before, the buyer (new party) The Lycra Company is a
public trade company, and it “assumed the associated debts, obligations, and
liabilities of INVISTA’s apparel and textile business”. Therefore, INVISTA’s
representation of new party should be considered as a state actor. The new
20

Defendant is public traded company in this suit and should liable under
constitutional claims.
The Due Process Clause of the Fourteenth Amendment is exactly like a
similar provision in the Fifth Amendment. The due process clause is part of the
14th amendment which guarantees that no state may deny basic rights to the
people.
The Fifth and Fourteenth Amendments to the United States
Constitution each contain a due process clause. Due process deals with the
administration of justice and thus the due process clause acts as a safeguard
from arbitrary denial of life, liberty, or property by the government outside the
sanction of law. The Supreme Court of the United States interprets the clauses
broadly, concluding that these clauses provide three protections: procedural due
process (in civil and criminal proceedings); substantive due process, a
prohibition against vague laws; and as the vehicle for the incorporation of the
Bill of Rights.
Plaintiff was denied the fundamental constitutional right of equal access
to due process and equality under all of the Courts. One due process right that
Pro Se litigants clearly have: the right to a meaningful opportunity to be heard.
Denying the due process to Plaintiff Pro se violated his rights under the First,
Eighth and Fourteenth Amendments of the United States Constitution.
4) Discrimination Plaintiff Pro Se bv Defendant
Judge Bray’s Memo and Recommendation did not address Plaintiffs
claim of Discrimination Plaintiff Pro Se even he granted Plaintiffs request to
add the claim on his order, ROA.156.
Defendant has been continuously discriminating plaintiff pro se by
providing false statements in motions, reply, and depositions (Pittman,
Huffman, Zens, Egbers) and declarations (Pittman, Blocksidge). Defendant did
not follow court proceedings (Rule 5, 25, 26), and did not response to court in
timely manner, committed default, refuse to disclose key information and did
not serve Plaintiff Pro se when it files motions in the court at current lawsuit.
Defendant’s actions and behaviors are showed as that it is upper class party in
the courts and it can manipulate court proceedings even committed crime of
perjury, forgery and contempt court orders without received any sanctions and
punishments.

21

VI.

The Fifth Circuit court fail to reverse district court used inadmissible
evidence to issue final judgment order and abuse of discretion

Where a trial court must exercise discretion in deciding a question, it
must do so in a way that is not clearly against logic and the evidence. An
improvident exercise of discretion is an error of law and grounds for reversing
a decision on appeal. The traditional standard of appellate review for evidencerelated questions arising during trial is the "abuse of discretion"
Most judicial determinations are made based on evidence introduced at
legal proceedings. Evidence may consist of oral testimony, written testimony,
videotapes and sound recordings, documentary evidence such as exhibits and
business records, and a host of other materials, including voice exemplars,
handwriting samples, and blood tests.
Before such materials may be introduced into the record at a legal
proceeding, the trial court must determine that they satisfy certain criteria
governing the admissibility of evidence.
An appellate court would find that a trial court abused its discretion if it
used an evidence without proof that it was authentic. Apter v. Ross, 781 N.E.2d
744 (Ind.App. 2003).
Evidence that is formally presented before the trier of fact (i.e., the judge
or jury) to consider in deciding the case. The trial court judge determines
whether the evidence may be proffered. To be admissible in court, the evidence
must be relevant (i.e., material and having probative value) and not outweighed
by countervailing considerations (e.g., the evidence is unfairly prejudicial,
confusing, a waste of time, privileged, or based on hearsay).
A declaration is generally inadmissible at trial. The facts asserted to in
the declaration are admissible only if they are testified to by the declarant at
trial, Johnson v. Weld County., 594 F.3d 1202, 1210 (10th Cir. 2010)
In both current and previous lawsuits, the Fifth Circuit court fail to
reverse district court judge David Hittner chose declarations from Mr. Chuck
Blockside and Grant Pittman as sole “factual evidences” without reviewing,
proofing, testified and cross examining by Plaintiff or experts to establish
authenticity and admissible evidences. By using those two inadmissible
declarations, Judge Hittner issued final orders for both current and previous
lawsuits.

22

Per Rule 56(a), issuance of summary judgment can be based only upon
the court's finding that, both1) there exists no disputed genuine issue of material fact between the
parties requiring a trial to resolve; and
2) in applying the law to the (undisputed) facts, one party is clearly entitled
by law to judgment.
The judge had no discretion at summary judgment time: all fact-finding
is done by the jury at trial, not by the judge at summary judgment (the judge
only looks for the existence of disputed "facts" to be "found").
Since Plaintiff disputed both declarations which are genuine material
issues/facts and no trial nor hearing were conducted at the courts, both of Judge
Hittner’s orders are not valid based on FRCP rule 56 because of inadmissible
evidences.
Judge Hittner’s orders not compliance with federal laws. He has not only
not followed the law but also abused his discretion. By doing these, he has also
discriminated Plaintiff Pro se by ignoring, refusing review and correcting even
after Plaintiff filed many motions along with factual evidences, ROA. 72-73, 9T
95, 152. including admissible documents which would prove false and
inadmissible evidences have been used to issue orders, ROA.75, 294, 295. The
orders must be vacated and reversed.
Fifth Circuit court fail to reverse district court and judges did not allow
Plaintiff complete deposition on key witness Grant Pittman, denying Plaintiff
from hearing, trials, cross-exam Defendant’s false and inadmissible
statements/evidences including both declarations of Grant Pittman and Chuck
Blocksidge. The District Judges made false statements on the facts and
evidences. Plaintiff did not get a fair trial, nor hearing to present his evidences
and arguments including the photo evidences which is admissible and nondisputed evidence Defendant never disputed.
PlaintiffAppellant strongly and respectively request Appeal Court to
review and investigate all the issues ascended in this case, have a hearing and
oral argument for the truth and resolution to reverse the District court orders
and punish all the persons who committed crimes of perjury, forgery and
contempt court orders.
The public policy interest of ensuring pro se litigants receive a fair
hearing was addressed by this Court in Haines v. Kerner, 404 U.S. 519, 52023

21 (1971) when it held that pro se litigants’ pleadings should be held to a less
stringent standard than formal pleadings drafted by lawyers and should be
liberally construed by the courts. The Eighth Circuit further addressed this
issue in Bramlet v. Wilson, 495 F.2d 714 (8th Cir. 1974) when it held if there
is any theory entitling a pro se litigant to relief - even a theory not considered
or known to the pro se litigant - the court cannot dismiss.
The Fifth Circuit, however, affirmed the district court’s erred order in
spite of Petitioner’s averment that there were evidences that would
demonstrate Respondents fraudulently procured the order with participation
of their attorneys.
This case arises against the backdrop of a well-developed body of law
regarding Res Judicata, due process, default judgment, fraudulent scheme,
crimes, civil right violation, discrimination Plaintiff Pro se and dismissal
involving unresolved issues of material fact.
The Fifth Circuit’s actions so far depart from the accepted course of
judicial proceedings and sanction such a departure from the lower court
regarding all the arguments and evidences mentioned above. Petitioner fully
articulated there was unreviewed evidence from discovery requiring a court
order to obtain that would prove Respondents committed fraud or crime at
court proceeding.
VII.

The Fifth Circuit Exceeded Its Powers and Acted as a Trier of Fact by
Determining Relevance of Unproduced, Unreviewed Evidence

The Fifth Circuit failed to acknowledge unresolved issues of fact
regarding Respondents’ alleged fraud - and then exceeded its powers by acting
as a trier of fact, determining the substance of evidence no court has ever
reviewed and took the “word” of an individual alleged to have committed
perjury and forge documents is of significant concern.
Considering that documents submitted to the courts are supposed to be
truthful under penalty of perjury, it begs the question of why the district court
and the Fifth Circuit took no action regarding allegations on INVISTA
providing false documents and its witnesses committed perjury in deposition
and declarations.
24

The Fifth Circuit’s actions are irreconcilable with its role in the judicial
system, depart from the usual course of judicial proceedings and beg for this
Court’s supervisory powers to review.
A.

The Fifth Circuit Failed to Liberally Construe Petitioner’s Pleadings as
a Pro Se Litigant, as Required by Haines.
Petitioner is a pro se litigant before district court and Fifth Circuit. The
district court and Fifth Circuit were required to construe Petitioner’s pleadings
liberally. They didn’t.
Petitioner clearly stated district court judgments must be denied due to
fraudulent scheme, crimes, civil rights violation, unresolved issues of material
fact and most of INVISTA’s claims and evidences were false. Yet district court
and Fifth Circuit held Petitioner to an erroneous standard, not let him
complete his discovery process by denying or not response Petitioner’s motion
to compel and sanction INVISTA. District court and Fifth Circuit has not even
examined or mentioned Petitioner’s claims, evidences and undisputahle
evidences. Instead, Fifth Circuit just declared that Petitioner’s “entire appeal
lacks an arguable legal basis for grant relief’ without mentioning any
argument and evidence in appeal documents nor any hearing or trial.
The holding below is contrary to and inexplicably ignored this
Court’s ruling in Haines v. Kerner. The district court and Fifth Circuit
have effectively created a “Members'Only” access to the judicial system in
their holdings by demanding a pro se litigant produce the same pleading
as an experienced lawyer. This violates the law and spirit of Haines.
As this Court held, “[t]he only issue now before us is petitioner’s
contention that the District Court erred in dismissing his pro se complaint
without allowing him to present evidence... .[a]llegations such as those asserted
by petitioner, however in artfully pleaded, are sufficient to call for the
opportunity to offer supporting evidence.” Haines, 404 U.S. at 519.
Petitioner may have in artfully pleaded his allegations. Yet his
pleadings were sufficient for district court and Fifth Circuit to determine there
were unresolved issues of fact and unreviewed evidence to resolve those issues.
In Haines, this Court held a pro se litigant was “entitled to an
opportunity to offer proof’ and remanded for further proceedings. Id. at 521.
Inexplicably, despite Petitioner’s statement that, if given the opportunity
through some evidence produced with a court order, he could offer proof of his
25

allegations, the district court and Fifth Circuit refused him the very
opportunity this Court has determined is due a pro se litigant.
The Fifth Circuit’s decision ignores and contradicts precedent regarding
how pro se litigants’ pleadings are treated by courts and calls for review.
B.
The Lower Courts Were Required to Liberally Construe Petitioner’s
Pleadings and Deny Judgment if There Was Any Legal Theory Under Which
Petitioner Could Prevail.
The Fifth Circuit’s holding diverges from well-established precedent and
is at tension with holdings of this Court and Circuit courts.
“A pro se litigant’s pleadings are to be construed liberally and held to a
less stringent standard than the formal pleadings drafted by lawyers.” Hall v.
Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991).
The Eighth Circuit has held “[a] complaint should not be dismissed
merely because a plaintiffs allegations do not support the particular legal
theory he advances, for the court is under a duty to examine the complaint to
determine if the allegations provide for relief on any possible theory. Bramlet,
495 F.2d at 714.
The district court was required to consider Petitioner’s allegations of
unresolved or contested issues of fact. The district court and Fifth Circuit were
required to determine if Petitioner’s allegations of issues of fraud would allow
for sanction on Respondent. They did not. The lower courts’ actions violate
Petitioner’s constitutionally protected due process rights.
The Fifth Circuit’s Decision Creates Tiers of Access to the Judicial
C.
System and Negatively Impacts Pro Se Litigants.
This case presents the important question of whether access to justice is
contingent on the presence of legal representation. The number of Americans
representing themselves in legal proceedings is high and continues to rise.
The Fifth Circuit’s holding advocates that those with access to the best
legal representation money can buy should prevail - but not based on the merits.
This is unconscionable. Our justice system is not a country club. Access and
due process are constitutional rights per Fourteenth Amendment, not
platinum credit card benefits for the affluent.
26

The district court and Fifth Circuit were aware of evidence Petitioner
couldn’t obtain without court order which Petitioner averred would prove
Respondent committed fraud and crime.
Rather than ensuring Petitioner’s pleadings were liberally construed
and every opportunity for a full and fair hearing was given, the lower courts
were all too eager to dispose of this case and find for Respondents - not on the
merits, but because Petitioner couldn’t afford legal representation and didn’t
speak the court’s “legalese.”
However, “(jludges are charged with ascertaining the truth, not just
playing referee... A lawsuit is not a game, where the party with the cleverest
lawyer prevails regardless of the merits.” John Greacen, “Ethical Issues for
Judges in Handling Cases With Self-Represented Litigants.”

Judicial

Council of California (2007) quoting Garnet v. Blanchard, 91 Cal. App. 4th 1276
(2001).
VIII. The Fifth Circuit Did Not Follow McDonnel Douglas Framework and
Decision in Previous Case Created a Direct and Substantial Circuit Split
Regarding Age Discrimination Cases
The McDonnell Douglas framework that the Court inexplicably casts aside
today was summarized neatly in Burdine, 450 U.S., at 252 110 S.Ct., at 1093.
“First, the plaintiff has the burden of proving by the preponderance of the
evidence a prima facie case of discrimination. Second, if the plaintiff succeeds
in proving the prima facie case, the burden shifts to the defendant to
articulate some legitimate, nondiscriminatory reason for the employee’s
rejection. Third, should the defendant carry this burden, the plaintiff must
then have an opportunity to prove by a preponderance of the evidence that the
legitimate reasons offered by the defendant were not its true reasons, but
were a pretext for discrimination.” 450 U.S., at 252-253, 101 S.Ct., at 1093
(citations and internal quotation marks omitted).
Based on McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802-05 (1973)
framework, the District Court found that Gu met his initial burden in
establishing a prima facie case against INVISTA for age-based employment
discrimination- l) Gu was over age of 40, 2) Gu had a good performance, 3) Gu
was terminated, and 4) INVISTA was favor young employee at the similar
situations.
27

As a result, the burden then shifted to INVISTA who stated that its
nonretalitory reason for terminating Gu’s employment was not due to his age,
but rather due to “as a result of failing to meet expectation” without explanation
of “expectation” (Termination letter dated on November 6, 2013). All the
arguments and evidences can be found in previous case 4:15-CV-00240, No. 1620463 and No. 17-6143 documents and similar cases, see Bryant v. Compass
Group USA, Inc., 413 F.3d 471, 478 (5th Cir. 2005) (quoting Okoye v. Univ. of
Tex. Houston Health Sci. Ctr., 245 F.3d 507, 514 (5th Cir. 2001)). Wallace v.
MethodistHosp. Sys., 271 F.3d 212, 220 (5* Cir. 2001). Sandstadv. CBRichard
Ellis, Inc., 309 F.3d 893, 901 (5th Cir. 2002). Dotson v. Gulf, 2006 WL 44071, at
*1 (S.D. Tex. 2 Jan. 9, 2006) (citing Okoye, 245 F.3d at 514-15). Wallace v.
Methodist Hosp. Sys., 271 F.3d 212, 220 (5th Cir. 2001). Salazar v. Cargill Meat
Solutions Corp., 5th Cir., No. 15-10097 (Oct. 8, 2015), Reeves v. General Foods
Corp., 682 F. 2d 515 (1982), Bienkowski v. American Airlines, Inc., 851 F.2d
1503 (1988).

IV.

Fifth Circuits’s Decision Countenances Crimes and Begs For This
Court’s Supervisory Powers

A denial of review emboldens and insulates discrimination participants
considering fraudulent testimony as a means to prevail. Denial or delay
multiplies the irreparable harm the Fifth Circuit’s decision legitimizes.
Millions of Americans are bound by law and orders. The judicial system must
ensure these individuals’ due process rights aren’t violated by the courts’
countenance of fraud at proceedings.
At minimum. Respondents’ activity includes perjured testimony,
tempering evidence, obstruction of justice, contempt court order. Individually,
or collectively, they’re enough to warrant criminal prosecution, as Petitioner
argued to the Fifth Circuit. See, e.g., regarding perjury and spoliation of
evidence, Rozier v. Ford Motor Co., 578 F.2d 871 (5th Cir. 1978), Karppinen v.
Karl Kiefer Machine, 187 F.2d 32 (2nd Cir. 1951), Newark Stereotypers Union
No. 18 v. Newark Morning Ledger Co., 397 F.2d 594, 598 (3rd Cir. 1968),
Stridiron v. Stridiron, 698 F.2d 204 (3rd Cir. 1983).

28

The Respondents’ actions are serious of crimes, The Fifth Circuit’s
actions demonstrate bad law, bad policy. This court’s supervisory powers and
review are truly needed.
For Petitioner, everything is on the line. Petitioner has sought relief and
had his due process rights abridged and violated by the lower courts.
As a practical matter, a denial of review insulates Respondents from any
liability or consequences from an elaborate strategy of fraud or crime executed
at courts by Respondents, their attorneys and counsels constituting not just
crime, but crime upon the court. Respondents have become emboldened that
they’ve gotten away with crime and continue to commit further crimes in the
case proceeding. The Fifth Circuit has communicated parties can commit
wrongdoing, suppress discoverable documents, forge documents, contempt
court order and perjury. Party with money and power can do anything and win
any case in any courts. Individual rights, constitutional rights, law and order
were no contest to the money and power. If it is true as this case proceeding in
district and Circuit, there is no chance for pro se litigant to win in any court
level which represent a “black hole” (or fault) in our legal system which has no
checkpoint until this Court. Respondents’ behavior should have been shocking
and unacceptable to the lower courts. Inexplicably, they have tolerated and
condoned crimes.
Perjury, tampering with evidences and Contempt of Court Order are
very serious crimes. At the Houston Woman case, Amy Fisher committed
perjury on Nov. 17, 2014, during her deposition and trial testimony related to
the civil trial of Lipinski et. al. v. Meritage Co., Civil Action No. H-10-CV-605,
United States V. Amy Fisher, 15CR 227. When Amy Fisher was indicted for
Perjury, former US attorney Kenneth Magidson stated that “The integrity of
the judicial system requires truthfulness from all witnesses in legal matters in
order for justice to prevail.” “When perjury allegations are referred to us, we
work closely with investigators to determine whether to seek federal criminal
charges. We do not take allegations of perjury lightly in any proceeding - civil
or criminal - and will pursue those that attempt to undermine the reliability of
our legal processes.”
Further delay multiplies irreparable harm to Americans bound by civil
or criminal actions. Immediate review is manifestly appropriate in light of the
circuit split or inconsistent on the issue of judicial review of Judgment awards,
involving allegations of criminal procurement, violation of Petitioner’s due
29

process rights as a pro se litigant, premature summary judgment in spite of
unresolved issues of material fact, district court’s departure from usual judicial
proceedings and the Fifth Circuit’s sanctioning of such a departure.

CONCLUSION

For the all forgoing reasons above, Petitioner respectfully request that
this Court grant the petition for a writ of certiorari and keep the integrity
of our judicial system from fraudulent schemes and crimes in order for
justice to prevail.

Respectfully submitted,

Date-

, ^ 2^7^/

S'

30

